Department of Homeland Security
   Ofﬁce of Inspector General

           The U.S. Citizenship and Immigration 

    Services’ Adjudication of Petitions for Nonimmigrant 

     Workers (I-129 Petitions for H-1B and H-2B visas) 





OIG-11-105                                       August 2011
                                                                        Office ofII/spector
                                                                               of Inspector Gel/eral
                                                                                            General

                                                                         U.S.
                                                                         U.S. Department
                                                                              Department of Homeland
                                                                                            Homeland Security
                                                                                                     Security
                                                                        Washington, DC 20528



                                                                        Homeland
                                                                        Security
                                    AUG 225
                                    AUG      2011
                                          5 2011





MEMORANDUM FOR:                     Donald Neufeld
                                    Associate Director
                                    Associate Director

                                    Service Center Operations Directorate
                                    U.S.
                                    U.S. Citizenship and Immigration Services

FROM: 	                             AnneL. L.
                                    Anne     Richards ~~~~
                                                Richards    al:l K&4~~
                                    Assistant Inspector General for Audits

SUBJECT: 	                          The Us.
                                    The  Us. Citizenship
                                             Citizenship and Immigration
                                                               Immigration Services'
                                                                           Services'
                                    Adjudication of  Petitions for Nonimmigrant Workers
                                                  ofPetitions                    Workers
                                    (1-129 Petitions for
                                    (1-129 Petitions  for H-1
                                                          H-1Band
                                                              Band H-2B visas)

Attached        forinformation
Attached for your     your infonnation
                               is our final 
                     report, The
                                              is our final letter report,  The Us.
                                                                                 Us. Citizenship
                                                                                     Citizenship and
Immigration Services' Services' Adjudication
                                     Adjudicationof    Petitions for
                                                    ofPetitions   forNonimmigrant
                                                                      NonimmigrantWorkersWorkers(1-129
                                                                                                 (1-129
Petitions for
Petitions      for H-1B
                      H-1B and and H-2B
                                      H-2B visas). WeWe incorporated
                                                          incorporated thethe formal
                                                                               fonnal comments
                                                                                      comments from the
Director, U.S. U.S. Citizenship and Immigration Services in the report.         report.

The report contains two recommendations aimed at improving            improving Immigration
                                                                                   Immigration Services
Officer fraudfraud identification and    and response
                                               response training.
                                                          training. Your
                                                                     Your office
                                                                            office concurred
                                                                                   concurred with both
recommendations.
recommendations. Within       Within 90 90 days
                                            days ofofthe
                                                      the date
                                                          date of
                                                                of this
                                                                   this memorandum,
                                                                        memorandum, please provide our
offce
officewithwithaawritten
                    written response
                                response that
                                            that includes
                                                  includes your
                                                             your (1)
                                                                  (1) agreement
                                                                       agreement oror disagreement,
                                                                                      disagreement,
(2) corrective action           plan,
                      action plan,     and   (3) target
                                             (3) target completion     date for each  recommendation.   Also,
                                                                       date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary to
infonn
inform      us the
       us about about
                   currentthe  current
                           status of 
   status of the recommendations.
                                                        recommendations. Until  Until your
                                                                                      your response
                                                                                           response is
received and evaluated,                  recommendations will
                    evaluated, the recommendations             wil bebe considered
                                                                         considered open
                                                                                     open and
                                                                                           and unresolved.
                                                                                               unresolved.

Consistent with our responsibility under the Inspector General          General Act,
                                                                                Act, we are providing
copies of  of our report to appropriate congressional committees with         with oversight and
appropriatioIi
appropriation         responsibility
              responsibility                 over
                             over the Department of
 the Department of Homeland Security.
                                                                                Security. The report
                                                                                               report will
                                                                                                      wil
be posted on our website.

Should you have any questions;
                    questions, please call me, or your staff
                                                       staff may contact
John E.
     E. McCoy II, Deputy Assistant Inspector
                                    Inspector General for
                                                       for Audits
                                                           Audits at
                                                                  at (202)
                                                                     (202) 254-4100.
                                                                           254-4100.

Attachment
Background
The United States Citizenship and Immigration Services (USCIS) is the agency within
the Department of Homeland Security (DHS) that oversees lawful immigration to the
United States. Its responsibilities include collecting, processing, and adjudicating visa
petitions submitted by employers seeking permission to temporarily employ foreigners as
nonimmigrant workers in the United States.

Employers use Form I-129 (Petition for Nonimmigrant Worker) to request permission to
bring foreign individuals to the United States temporarily to perform services or labor, or
to receive training. The specialty occupation worker visa (H-1B visa) is a nonimmigrant
visa authorized under the Immigration and Nationality Act.1 It allows U.S. employers to
temporarily employ foreigners in “specialty” occupations. The regulations define
“specialty occupation” as one requiring theoretical and practical application of a body of
highly specialized knowledge in a field of human endeavor, which requires the
attainment of a bachelor's degree or higher in a specific specialty, or its equivalent, as a
minimum for entry into the occupation in the United States.2 The temporary
nonagricultural worker visa (H-2B visa) is a nonimmigrant visa authorized under the
Immigration and Nationality Act.3 It allows U.S. employers to employ foreign
individuals in temporary nonagricultural jobs.4

USCIS’ headquarters-based Service Center Operations Directorate is responsible for the
adjudicative process at four USCIS service centers; most I-129 petitions are processed
and adjudicated by Immigration Services Officers (ISOs) working at USCIS’ California
and Vermont Service Centers. The Service Center Operations Directorate develops
adjudicative guidance and disseminates it to the service centers.

The service centers are the first to review I-129 petitions for H-1B or H-2B visas. If
approved, the petition information is forwarded to the U.S. Department of State for
issuance of the visa. However, if the service center identifies fraud indicators, the
petition is forwarded to USCIS Fraud Detection and National Security (FDNS). If FDNS
believes the potentially fraudulent act is intentional and warrants legal action, it forwards
the petition to U.S. Immigration and Customs Enforcement. U.S. Immigration and
Customs Enforcement works with U.S. Department of Justice to seek legal action against
the employer.

Results of Review

Immigration Services Officer Fraud Training Can Be Improved

The ISO fraud training for the adjudication of the H-1B and H-2B visa classifications of
the I-129 petitions is decentralized and inconsistent. Although USCIS has a process to

1
  Immigration and Nationality Act, Section 101(a)(15)(H)(i)(b). 

2
  8 C.F.R § 214.2(h)(4)(ii) (2011). 

3
  Immigration and Nationality Act, Section 101(a)(15)(H)(ii)(b). 

4
  8 C.F.R § 214.2(h)(1)(ii)(D) (2011). 



                                                     1
train newly hired ISOs, on-the-job training procedures vary. Experienced ISOs do not all
receive the same type of fraud training, and ongoing fraud training is not updated and
provided annually. This occurs because USCIS headquarters has not implemented a
national, ongoing fraud identification and response training program that includes
standards for annual training and updates. Without a consistent fraud identification
training program, USCIS cannot ensure that fraudulent petitions for H-1B and H-2B visas
are consistently identified.

All newly hired ISOs complete the same basic 6-week ISO course before being assigned
to a service center. However, local on-the-job training procedures vary. At the Vermont
Service Center, on-the-job training is provided by senior officers, subject matter experts,
and training coordinators. In addition, all new hires are assigned a mentor who reviews
their adjudication decisions. Once the mentor feels that the new ISO can work
independently, the mentor completes a Training Qualification Sheet that summarizes the
number of cases reviewed, the decision made on each case, and the date on which the
new ISO became qualified to independently adjudicate cases. The ISO’s supervisor also
certifies that the ISO is qualified to adjudicate cases. The Center Training Unit maintains
a copy of the Training Qualification Sheet and certification in a database. The California
Service Center also assigns mentors to the new ISOs and ensures continuous on-the-job
training, but does not use a standardized checklist or booklet. The California Service
Center does not track ISO training or certify that new ISOs received on-the-job training.

In 2006, both service centers provided I-129 H and L Fraud Training, which discusses the
process to adjudicate Form I-129 H and L visa classifications and related fraud cases.
However, this training was not provided to all ISOs responsible for the adjudication of
H-1B and H-2B petitions. For example,

       Sixty-eight (57%) of the 119 ISOs and supervisors at the Vermont Service Center
       did not take the I-129 H and L Fraud Training.
       One hundred (85%) of the 118 ISOs and supervisors at the California Service
       Center did not take the I-129 H and L Fraud Training.

Fraud prevention training beyond the H and L courses differs between the two service
centers. The Vermont Service Center provides Nonimmigrant Visa Fraud Identification,
Criminal History Data Request, and Aggravated Felony training as stand-alone courses.
The California Service Center provides I-129 Fraudulent Document training and an
Overview of Center Fraud Detection Operations for Family Based Adjudicators, which
contains a section on marriage fraud.

Not all ISOs and supervisors responsible for adjudicating the H-1B and H-2B petitions
attended the fraud courses unique to each service center. For example,

       Thirty-seven (31%) of the 119 ISOs and supervisors at the Vermont Service
       Center did not take the Nonimmigrant Visa Fraud Identification training.
       One-hundred and two (86%) of the 118 ISOs and supervisors at the California
       Service Center did not take the I-129 Fraudulent Document training.


                                             2
USCIS headquarters has not developed a formal, post-basic, national fraud identification
and prevention training program. Such a program would help ensure that ISOs receive
adequate and consistent training to ensure that immigration benefits are granted only to
eligible applicants and petitioners. It would allow for efficient policy and procedural
changes when a systemic vulnerability or widespread fraud activity is detected.

Recommendations
We recommend that the Director of USCIS—

   1.		 Develop and implement a national, post-basic fraud identification and response
        training program that identifies current fraud trends.

   2.		 Ensure that this fraud training is conducted annually for all ISOs and supervisors
        responsible for H-1B and H-2B adjudications.

Management Comments and OIG Analysis
The Director, USCIS, concurred with both recommendations in our report. We have
included a copy of the comments in appendix B. The following is an evaluation of
USCIS’s comments.

Management Comments to Recommendation 1

Concur: USCIS is currently developing post-basic fraud courses to aid ISOs in identifying
current fraud trends and provide them with the necessary skills for conducting interviews
where fraud may be present.

OIG Analysis: We concur that the steps that USCIS is taking, and plans to take, begin to
satisfy this recommendation. This recommendation will remain open and unresolved
until we have obtained and reviewed a synopsis of the post-basic fraud courses.

Management Comments to Recommendation 2

Concur: USCIS agreed to begin the necessary steps to ensure that ISOs receive this
training annually, once the courses are developed and implemented.

OIG Analysis: We concur that the steps that USCIS is taking, and plans to take, begin to
satisfy this recommendation. This recommendation will remain open and unresolved
until we have obtained and reviewed policies and procedures that ensure ISOs receive the
post-basic fraud training annually.




                                            3
Appendix A
Purpose, Scope, and Methodology

                   The objective of our review was to determine whether USCIS
                   provides its ISOs with consistent fraud training for the adjudication
                   of the H-1B and H-2B visa classifications of I-129 petitions.

                   To accomplish our objective, we analyzed the training records of
                   ISOs adjudicating the H-1B and H-2B visa classifications of I-129
                   petitions at the California and Vermont Service Centers. These
                   training records covered January 2003 through May 2010 for 237
                   ISOs and supervisors. We reviewed these records for fraud-related
                   courses offered and attended.

                   We reviewed applicable federal regulations establishing the
                   policies for alien nonimmigrant workers to obtain temporary
                   employment in the United States and its territories under the H-1B
                   and H-2B programs. We also reviewed the Adjudicators Field
                   Manual; national and local standard operating procedures for H-1B
                   and H-2B adjudications; other adjudicative guidance; U.S.
                   Government Accountability Office reports; USCIS Ombudsman
                   reports, Benefit Fraud Compliance Assessment; and other relevant
                   reports and documents for topics covering nonimmigrant worker
                   adjudications.

                   We interviewed USCIS officials from the Office of the Chief
                   Financial Officer, Quality Assurance, Fraud Detection and
                   National Security, Office of Policy and Strategy, and Service
                   Center Operations. We also interviewed officials from the U.S.
                   Department of State, the Kentucky Consular Center, and the U.S.
                   Department of Labor.

                   We conducted this performance audit between August 2009 and
                   March 2011 pursuant to the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide for a reasonable basis for our findings and conclusions
                   based upon our audit objectives. We believe the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   upon our audit objectives.

                   We appreciate the cooperation by USCIS management and staff in
                   providing the information and access necessary to accomplish this
                   review.




                                          4
Appendix B
Managements Comments to the Draft Letter Report

- - - - -- - - - --          - -- - - - - - - - - - - -

                                                                                        u.s. Department or Homeland Security
                                                                                        U.S. Citizenship ond Immigration Services
                                                                                        Office of/he Director MS-2000
                                                                                        Washington, DC 20529-2000


                                                                           ~
                                                                           ~~~~~ lJ.S.Citizenship
                                                                           \' l\.1;lrJi; and Immigration
                                                                           ~~~
                                                                            ~¢
                                                                                       SerVlces
                                                                                           .




              Memorandum
              TO:
                           ~:t;t~~~a;!~r Gen~its ~ J
              FROM:        Alejandro N. Mayorkas                ~'
                           Director, U.S. Citizenshi an Immigration Services

              SUBJECT: Draft Letter Report: The U.S Citizenship and Immigration Services' Adjudication of
                       Petitions/or Nonimmigrant Workers (1-129 Petitions/or H-1B and H-2B visas)­
                       For Official Use Only

              USCIS appreciates the opportunity to review and comment on the subject report and generally
              agrees with the DIG sununary of the issues identified in the report. USCIS disagrees with the
              assignment of the recommendations to the Associate Director of USCIS Service Center
              Operations and feels that this recommendation should be addressed to the Director of USC IS for
              implementation by USCIS program offices in alignment with the USCIS mission since the
              recommendations are national in nature.

              DBS-OIG recommends that the [Director of U.S. Citizenship and Immigration Services]:

              Recommendation 1: Develop and implement a national, post-basic fraud identification and
              response training program that identifies current fraud trends.

               USCIS response: users concurs with this recommendation. Post-basic fraud courses for
               Immigration Services Officers (ISOs) are currently being developed to aid [SOs in fraud
               identification and trends. These courses will assist ISOs in identifying current fraud trends, and
               provide them with the necessary skills for conducting interviews where fraud may be present . .
               The focus of the courses will include providing the ISOs with the knowledge and guidance to
               make reasonable determinations with respect to identifying fraud, making the appropriate
               referrals to Fraud Detection and National Security (FDNS) and using the correct process in
-~~   --- -- ~-nquesting-support-frgm-f.<:DNS .o per.ations .----------- - - - - .




                                                                5

Appendix B
Managements Comments to the Draft Letter Report




I       The U.S Citizenship and Inunigration Services' Adjudication of Petitions for Nonimmigrant
        Workers (1-129 Petitions for H-IB and H-2B visas) - For Official Use Only
        Page 2

        Recommendation' 2: Ensure that this fraud training is conducted annually for alllSOs and
        supervisors responsible for 8-1B and 8-2B adjudications.

        USCIS response: USCIS concurs with this recommendation. Once the post-basic fraud courses
        for ISOs are developed and implemented, users will begin the necessary steps to ensure that
        ISOs receive this training on an annual basis.

        Currently, ISOs sustainment and refresher training is held at Center Training Units in the Service
        Centers, where fraud training is conducted by instructors from the Center Fraud Detection
        Operations (CFDO). The training provided by CFDO instructors includes infonnation on any
        identified fraud trends and patterns, and discusses fraud indicators that the ISOs should look for
        during the adjudicative process. CFDO instructors confirm that if the ISO identifies fraud l
        indicators, suspicious patterns, or trends during their review of cases, the ISO must refer this
        infonnation to the CFDO for fraud review and processing.

        USCIS does note that ISOs are not FONS Immigration Officers 00), and thUs do not hav~ the
        same FONS fraud training as an 10. ISOs nonnally will only make a finat finding of fraud when
        supported by the FONS findings as contained in the FDNS Statements of Findings, ISO fraud
        training prepares ISOs to recognize potential fraud and instructs the ISO on how to articulate
        their suspicion of fraud when making a referral to the CFOO.




                                                                                                             J

                                                        6

Appendix C
Major Contributors to this Report

                    Richard T. Johnson, Director, Immigration and Enforcement
                    Michael Talevi, Audit Manager
                    Bradley Mosher, Audit Manager
                    Paul M. Streit, Audit Manager
                    David DeHaven, Auditor-in-Charge
                    John C. Chamberlain, Program Analyst
                    Peter Christopher, Program Analyst
                    Marissa Weinshel, Program Analyst
                    David Lu, Referencer




                                        7
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                            8
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
